                                                    U.S. Department of Justice

                                                    United States Attorney
                                                    District of Maine

                                                    100 Middle Street                   (207) 780-3257
                                                    6th Floor, East Tower          TTY (207) 780-3060
                                                    Portland, ME 04101             Fax (207) 780-3304
                                                                                 www.usdoj.gov/usao/me


For Immediate Release                               Contact: Halsey B. Frank
February 16, 2012                                   Assistant United States Attorney
                                                    Tel. (207) 780-3257

        Portland Man Sentenced to 3 ½ Years for Identity Theft and Benefits Fraud

       Portland, Maine: United States Attorney Thomas E. Delahanty II, announced that on
February 15, 2012, United States District Judge George Z. Singal sentenced Besouro Abdul
Zagon, 52, of Portland, also known as Donald Benjamin, to 3 ½ years of imprisonment for theft
of government housing, medical care, food and education benefits, passport fraud, Social
Security fraud, and aggravated identity theft. Judge Singal also ordered Zagon to serve 1 year of
supervised release and to pay $198,000 in restitution. The convictions were based on a 25-year
course of conduct in which Zagon used the identity of an actual United States citizen.

        According to court records, Zagon was born Donald Benjamin in Antigua in 1959. He
entered the United States in the early 1980s. In the mid-1980’s, Zagon assumed the victim’s
identity in Massachusetts, and continued doing so for the past 11 years in Maine. He legally
changed his name to Zagon in 1991. Zagon used the victim’s identity to fraudulently obtain 3
United States passports and a Social Security number, and to fraudulently obtain about $198,000
worth of government benefits, including federal financial assistance with housing, health care,
nutrition and education.

        At the sentencing, the victim described how Zagon’s use of his identity made it
impossible for him to get a business loan and credit, leading to the loss of his business; forced
him obtain an adjustable, rather than a fixed, rate mortgage, leading to the foreclosure of his
home; caused him to be billed for education loans he did not take out, and resulted in the
suspension of his driver’s license for violations he did not commit. The victim also described the
frustration he experienced from years of trying to clear his name.

       The investigation was conducted by the United States Departments of State, Diplomatic
Security Service; Homeland Security, Immigrations and Customs Enforcement; Health and
Human Services; Housing and Urban Development; Agriculture, the Social Security
Administration, the Federal Bureau of Investigation, and the Maine Department of Health and
Human Services.

                                             # # #
